<html>
<title> - TIME TO PAUSE THE RESET? DEFENDING U.S. INTERESTS IN THE FACE OF RUSSIAN AGGRESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                TIME TO PAUSE THE RESET? DEFENDING U.S.
              INTERESTS IN THE FACE OF RUSSIAN AGGRESSION

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 7, 2011

                               __________

                           Serial No. 112-47

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/




                  U.S. GOVERNMENT PRINTING OFFICE
67-304                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5037203f103325232438353c207e333f3d7e">[email&#160;protected]</a>  
                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Katrina Lantos Swett, Ph.D., president, Lantos Foundation for 
  Human Rights...................................................    12
Mr. Ariel Cohen, senior research fellow, Russian Eurasian Studies 
  and International Energy Policy, The Heritage Foundation.......    15
The Honorable Steve Sestanovich, George F. Kennan senior fellow 
  for Russian and Eurasian Studies, Council on Foreign Relations.    31

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs: Prepared statement....................................     4
Katrina Lantos Swett, Ph.D.: Prepared statement..................    14
Mr. Ariel Cohen: Prepared statement..............................    17
The Honorable Steve Sestanovich: Prepared statement..............    33

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............    63
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    66


   TIME TO PAUSE THE RESET? DEFENDING U.S. INTERESTS IN THE FACE OF 
                           RUSSIAN AGGRESSION

                              ----------                              


                         THURSDAY, JULY 7, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. At 
the start of the hearing I would like to recognize Annette 
Lantos, the widow of former Congressman Tom Lantos who 
participated, along with her family members, in the 
inauguration of the Tom Lantos Institute in their native 
Hungary, and it will be undoubtedly the premier human rights 
institute in the world. So we always welcome you back, Annette. 
Thank you for being with us. And I am sorry I could not be on 
that trip to participate in such a momentous occasion.
    Also at the start of the hearing, I would like to 
capitalize on the presence of a range of State Department 
personnel and remind the Department of this committee's 
longstanding pending request for the Secretary of State to 
testify on Afghanistan and Pakistan at the end of this month, 
we hope, and immediately upon full Senate confirmation, Deputy 
Secretary of State Bill Burns, whom we would like to have 
testify on Iran and Syria. And we had requested Ambassador 
Burns when he was still Under Secretary of State and had just 
been nominated for the Deputy Secretary post.
    After recognizing myself and the ranking member, my friend, 
Mr. Berman, for 7 minutes each for our opening statements, I 
will recognize each member of the committee for 1 minute for 
their opening remarks.
    We will then hear from our witnesses, and I would ask that 
you summarize your prepared statements in 5 minutes each before 
we move to the questions and answers with members under the 5-
minute rule. Without objection, the witnesses' prepared 
statements will be made a part of the record and members may 
have 5 days to insert statements and questions for the record, 
subject to length limitation in the rules.
    The Chair now recognizes herself for 7 minutes. The Obama 
administration came into office intending to ``reset'' the 
U.S.-Russia relationship. Their assumption was that the Bush 
administration had needlessly antagonized Moscow with overly 
aggressive policies, and that a more conciliatory approach 
would produce Russian cooperation in a broad range of issues. 
To that end, the Obama administration has offered one 
concession after another, but the concrete results have been 
meager at best.
    Russian cooperation on Iran is usually cited as a major 
accomplishment. But other than agreeing not to block U.N. 
Security Council Resolution 1929, which Moscow insisted be 
watered down, Russia's approach to Iran remains essentially 
unchanged even as Iran accelerates its march toward a nuclear 
weapons capability.
    Russia is also committed to stopping U.S. missile defense 
efforts. The Obama administration has said that the recently 
ratified Strategic Arms Control Treaty, known as the New START, 
places no restrictions on U.S. missile defense efforts. 
However, the Russian Government has repeatedly stated that the 
treaty does, in fact, come with such restrictions and has 
unambiguously stated that it will not honor the terms of the 
agreement if the U.S. proceeds with its plans.
    Russian claims that U.S. missile defense efforts in Europe 
are a threat to their security, and we know that those claims 
are absurd on their face. Independent experts say that not only 
does the proposed system pose no threat but that it cannot do 
so, a fact that Russia's leadership is well aware of. Russia's 
true motive is a political one; namely, to divide NATO and to 
demonstrate to the countries of Central and Eastern Europe 
that, despite their close alliance with the U.S., Moscow 
intends to retain a dominant influence over their affairs. This 
is how the government and the people in that region see it.
    Putin's government claims a privileged position for Russia 
regarding the countries on or near its borders and has 
repeatedly used its muscle to enforce this assertion of rights. 
Moscow has exploited their dependence on Russian energy 
supplies--including oil, natural gas, and electricity--to 
pressure governments to accommodate Russian demands, going so 
far as to cut off supply in the middle of winter.
    When Estonia defied the demands of Russian officials not to 
relocate a Soviet memorial in its capital, a massive 
cyberattack was launched on that country, almost paralyzing it. 
Worst of all, in 2008 Russia's longstanding efforts to reimpose 
its control over Georgia moved beyond sowing political and 
economic turmoil and promoting separatist movements to an all-
out invasion of large parts of that American ally. The tepid 
U.S. response has set a dangerous precedent and convinced 
Moscow that it has little to worry about.
    Moscow's actions have demonstrated the lengths that it is 
prepared to take to assert its influence on an even larger 
scale, a fact that is especially troubling in light of Europe's 
growing dependence on Russian energy. There are many other 
areas in which Russia still targets U.S. interests, such as its 
arms sales to the Chavez regime in Venezuela, but the list is 
too long to go into here.
    So it appears that the benefits for the U.S. of the reset 
are few and far between. But we have paid a high price for 
them. Last year's nuclear cooperation agreement with Russia was 
a gift, pure and simple. The U.S. market was opened to Russian 
nuclear companies, but U.S. companies will find no 
corresponding opportunities in that country, where they will be 
shut out by its state-owned nuclear monopolies. Russia did 
receive the U.S. seal of approval for its efforts to become the 
world's one-stop shop for all things nuclear. This reward was 
given even as Russia was continuing to assist Iran in its 
nuclear program.
    The latest offer to Moscow is support for Russia's entry 
into the World Trade Organization. This, despite Russia's 
continuing refusal to clamp down on the massive piracy of 
American intellectual property, which is second in scale only 
to China's, and much of which occurs on state-owned property.
    It also comes as the Russian Government's abuses of human 
rights and brutal approach toward those seeking a truly 
democratic government in Russia has only worsened. After the 
Russian authorities broke up opposition protests in Moscow and 
St. Petersburg late last year, detaining scores of activists, 
Russia's Vladimir Putin stated, ``If [the protesters] 
demonstrate without permission, they'll take a cudgel to the 
head. That's all there is to it.''
    This disturbing statement underscores the brutal nature of 
the Russian Government and its abusive treatment of anyone who 
challenges its policies. There has been a particularly shameful 
pattern of beatings and murders of journalists in Russia, and 
no one has been held accountable. And yet in another effort to 
prevent the democratic opposition from participating in the 
upcoming parliamentary elections, the Kremlin has banned Boris 
Nemtsov, one of Russia's most prominent democratic leaders--
whom I met with last year--from leaving Russia again, should he 
return from his current visit to France.
    What have we bought for all of our concessions to Moscow? 
How many times do we have to relearn the painful lesson that 
aggressors cannot be bought off, that allies must not be 
abandoned, and that naively trusting our adversaries to do 
anything other than pursue their own interests will produce no 
other outcome than to needlessly sacrifice our interests and 
undermine our security?
    It is my hope that the administration will reconsider its 
approach to the Russian regime.
    And I now turn to my good friend and distinguished ranking 
member for his opening remarks.
    [The prepared statement of Chairman Ros-Lehtinen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Berman. Thank you very much, Madam Chair, and I 
appreciate you calling this hearing. Before I start my opening 
comment I would simply like to join you in welcoming Annette 
Lantos. And it is quite fitting that we are holding a hearing 
on U.S.-Russia relationships with one of our witnesses being 
Katrina Lantos Swett and Annette Lantos in the audience, 
because there really was no more knowledgeable and articulate 
Member of Congress on the issue of U.S.-Soviet and then U.S.-
Russia relationships than our late chairman, Mr. Lantos. And it 
is very good to have you here.
    When the Obama administration took office in January 2009, 
the U.S.-Russia relationship was at one of its lowest points 
since the fall of communism at the end of the Cold War. 
President Obama wisely decided that permitting this 
relationship to falter did not serve U.S. interests, and the 
administration set a new policy, branded as the reset, to 
increase engagement on a number of levels.
    While there remain significant areas of disagreement 
between the U.S. and Russia, no doubt, including Russia's 
record on human rights, democracy, and rule of law, its 
conflict with Georgia, and Moscow's arms sales to dictatorial 
regimes, there can be no doubt that the reset has led to 
increased cooperation between our two countries in a number of 
critical areas. Most importantly, Russia, whose training and 
technology during the 1990s played a significant role in the 
advancement of Iran's nuclear weapons program, Russia has 
played a far more constructive role in efforts to prevent Iran 
from acquiring a nuclear weapons capability. Yes, they watered 
down the U.N. resolution, but the resolution that they voted 
for was the strongest by far resolution on this subject that 
the U.N. Security Council had ever adopted.
    The Russians at the same time canceled a contract to sell 
Tehran the sophisticated S-300 air defense system, an air 
defense system that would have rendered talk of a military 
option much weaker in terms of its import and effect on Iranian 
behavior.
    In April 2010, President Obama and Medvedev signed the 
landmark New START agreement. And Russia already cut their 
nuclear arsenal below the 1,550 ceiling it is obligated to 
reach by 2018. Some dismiss this significant achievement, 
saying Moscow would have reduced their nuclear missiles to this 
level for economic reasons anyway. These critics neglect to 
mention that without New START there would be no legal 
inspection, no verification monitoring regime, as the previous 
one expired with START 1. There would also be no limits on the 
numbers and types of new nuclear missiles Moscow could deploy.
    President Reagan famously said, ``Trust but verify.'' It 
seems that some critics would have preferred to trust their 
assumptions about Russian nuclear security outlays and to trust 
Russia not to build more and more newer missiles than give 
President Obama credit for safeguarding U.S. nuclear security.
    Russia has also supported the Northern Distribution 
Network. This is very important. Since early 2009 it has served 
as a critical transit route through Russia and Central Asia to 
support U.S. military operations in Afghanistan. Almost two-
thirds of the nonlethal materials we need to support our troops 
are now shipped on this route, and it is especially critical 
today, given the increasing difficulty of moving goods through 
Pakistan.
    Russia and the United States also have a mutual interest in 
preventing the flow of narcotics from Afghanistan, and 
cooperation on counternarcotics efforts have also increased as 
a result of reset.
    And finally, as Russia continues to negotiate its entry 
into the World Trade Organization, it has reopened its markets 
to imports of U.S.-produced meat, a market that largely was 
closed when President Obama took office. Those exports could 
total as much as $500 million this year. This means more jobs 
for Americans.
    I do associate myself with the chairman's remarks regarding 
Russian enforcement of intellectual property issue. This is a 
critical trade issue. Russia's laws, to have meaning, must be 
enforced.
    Now, there is part of this glass that is half empty. 
Despite repeated calls by President Obama and Secretary 
Clinton, Russia still refuses to comply with the cease-fire 
agreement that ended the August 2008 conflict with Georgia. As 
a result, there are more Russian troops stationed in the 
breakaway regions of Abkhazia and South Ossetia than before the 
conflict. This is a clear violation of the agreement hammered 
out by President Nicholas Sarkozy.
    The administration should continue to hold Russia to its 
commitments at the ongoing talks with Georgia in Geneva. While 
Russia remains one of the least free countries in Europe, and 
we are right to raise serious concerns about Russia's dismal 
record on democracy, human rights, and the rule of law.
    The recent decision by the Russian Ministry of Justice to 
deny registration to the People's Freedom Party is emblematic 
of the obstacles faced by opponents of the government. Yet the 
space for public discourse in Russia has widened to some extent 
in the last 2 years. Russia's young tech-savvy President has 
steadfastly fought efforts to restrict the Internet, and an 
increasing number of Russians are taking on their government 
with new-found activism.
    A significant number of Russian citizens has stepped 
forward to protest the destruction of a forest to build a 
highway between Moscow and Saint Petersburg. Regrettably, those 
who engage in such protests sometimes pay a very steep price. 
After exposing corruption by tax authorities, lawyer Sergei 
Magnitsky was murdered. Even if the investigation of his death 
ordered by President Medvedev is allowed to run its course and 
the perpetrators brought to justice, it will not bring back a 
husband to his wife, a father to his children, or a son to his 
parents.
    Madam Chairman, focusing only on areas of disagreement with 
Russia creates a distorted picture of the complex U.S.-Russia 
relationship, but it is critical that these troubling issues 
not get swept under the rug. I look forward to hearing the 
views of our panel on areas of both cooperation and 
disagreement with Russia, and yield back the balance of my 
time.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Berman. And 
I would like to thank the chairman of the Subcommittee on 
Europe and Eurasia, Mr. Burton, for yielding his spot for the 
opening statements. So I would like to recognize Mr. Smith, the 
chairman of the Subcommittee on Africa Global Health and Human 
Rights for his 1-minute statement.
    Mr. Smith. Thank you very much, Madam Chair, and thank you, 
Dan.
    Ms. Swett, glad to see you again and welcome to the panel. 
The reality is that Russia has a dismal human rights record, 
thanks to a decade of Vladimir Putin's self-styled managed 
democracy that has more to do with control than freedom. While 
some fixated with the pursuit of arms control and other 
agreements with Moscow, as important as they are, the human 
rights situation on the ground in Russia has deteriorated 
across the board. In category after category, we have witnessed 
the conditions going from bad to worse. Whether you are 
speaking about freedom of expression in the media, the right of 
all believers to freely profess and practice their faith, or 
the ability of human rights defenders, NGOs, and independent 
journalists and political parties to operate without fear of 
government harassment, the space for such activity has suddenly 
shrunk.
    The absence of an independent judiciary and meaningful 
checks and balances on the Executive power has contributed to 
this reality. Illustrative, though, of this case is the tragic 
case of Sergei Magnitsky, mentioned by Mr. Berman, I should 
say. And instead of featuring prominently in the 
administration's bilateral agenda, human rights clearly take a 
back seat to other considerations. At times one is left with 
the strong impression that preserving reset itself has become a 
priority for Washington.
    I ask unanimous consent that my full statement be made a 
part of the record.
    Chairman Ros-Lehtinen. Thank you. Without objection.
    Mr. Meeks, the ranking member on the Subcommittee on Europe 
and Eurasia is recognized.
    Mr. Meeks. Thank you, Madam Chair. Indeed the relationship 
between the United States and Russia a comprehensive and a 
complex one and you can look at it whether the glass is half 
full or half empty. But the reset agenda has produced, as Mr. 
Berman said, a New START treaty, diplomatic cooperation on 
issues ranging from North Korea to Iran, a transit agreement to 
facilitate the logistical supplies for international forces in 
Afghanistan, and cooperation in Arctic resources.
    As a result of the U.S. engagement with Russia, Russia 
canceled the sale of advanced S-300 surface-to-air missiles to 
Iran, and agreed to U.N.-based sanctions in carrying economic 
loss in the process.
    What begs the question is, what is actually the alternative 
to reset? Pausing the reset entails curbing U.S. engagement and 
hereby our strong support for economic reforms and limitization 
and modernization that is already underway in Russia. This rule 
would strengthen Russia's regressive elements with vested 
interest in maintaining the status quo for personal gain as 
opposed to expanding prosperity and economic opportunity across 
a wider section of Western population.
    It is important to note that even Russia's political 
opposition has expressed support for the Obama administration's 
reset policy, notably at a recent meeting in Moscow with 
members of this committee. They also support Russia's WTO 
accession precisely because this enhances the rule of law 
paradigm in Russia and they support a repeal of the Jackson-
Vanik amendment because it undermines U.S. moral credibility in 
Russia.
    And I think that with this complicated issue, we need to 
look at what the alternative would be. The alternative would be 
to regress or continue to progress. I yield back the balance of 
my time.
    Chairman Ros-Lehtinen. Thank you Mr. Meeks.
    Now Mr. Burton, the Subcommittee on Europe and Eurasia 
chairman, is recognized. Thank you, Dan, for yielding your 
spot.
    Mr. Burton. Yes, Madam Chairman. We lead a delegation to 
Moscow last week and met with the members of the Foreign 
Affairs or Federal Council over there. We met with the 
chairman, the Duma, and the Ministry of Economic Development. 
We also met with the American Chamber of Commerce.
    And I don't want to be redundant. I think my colleagues, 
you, Madam Chairman, and the ranking member have covered the 
issues very well. But what I would like to say is the reset 
issue ought to include very strongly the issue of Georgia and 
the building in Belarus of the nuclear power plant that is very 
close to Vilnius, which may endanger those people down the road 
if there is a nuclear mishap.
    The last thing I would like to say is that there is a lot 
of corruption in the government. The American Chamber talked 
about that. But they also said they think there is an 
opportunity for changing the attitude of the Russian Government 
in areas of commerce if we pursue this path.
    So I share all of your concerns, but I think there is a 
possibility that through the private sector we may be able to 
make some gains over there.
    Chairman Ros-Lehtinen. Thank you Mr. Burton.
    Mr. Faleomavaega, the ranking member on the Subcommittee on 
Asia and the Pacific is recognized.
    Mr. Faleomavaega. Madam Chair, thank you for giving me this 
opportunity. I would like to also associate myself and 
personally welcoming our distinguished lady and Mrs. Annette 
Lantos for joining us this morning and also for having members 
of her family join us.
    Madam Chair, I don't have an opening statement but I look 
forward to hearing from our witnesses. I do have some 
questions. Thank you for initiating this hearing this morning. 
Thank you.
    Chairman Ros-Lehtinen. Thank you, sir. Mr. Rohrabacher, the 
Subcommittee on Oversight Investigations chair, who always has 
an opening statement.
    Mr. Rohrabacher. Thank you very much, Madam Chairman. I 
find it very significant that there are American decision 
makers whose frame of reference on issues dealing with Russia 
has not changed--excuse me, please----
    Mr. Burton. Pardon me, Dan, I am sorry. Give him an 
additional 15 seconds, please
    Chairman Ros-Lehtinen. Mr. Rohrabacher will reset the 
clock.
    Mr. Rohrabacher. Reset, I like that. There you go.
    I find it significant that many of the decision makers, our 
decision makers, have a frame of reference in dealing with 
Russia that has not changed since the end of the Cold War. And 
there was no one, as Mr. Sestanovich can testify, who is more 
belligerent to the Soviet Union than I was, especially during 
my time when I worked with him in the Reagan White House. And 
there are reasons for concern which you expressed, Madam 
Chairman, but I find many of the people want to focus on some 
of the concerns and maybe perhaps expand, have an expansionary 
view of those concerns, have not appreciated the dramatic 
change that has taken place in Russia in the last 20 years. 
Many of those criticizing Russia have this same Cold War 
mentality and haven't even been to Russia in the last 20 years.
    They have had tremendous successes in reforms. We should be 
encouraging them and working with them to that end, not 
nitpicking with what I might suggest are sinister descriptions 
of certain activities.
    And let me just note, Georgia attacked two provinces. It 
was a Georgian violation of a longstanding truce. It wasn't a 
Soviet or Russian attack on Georgia that precipitated that 
problem. And if we keep acting this way, nobody in Russia will 
ever take us seriously unless we start to be more precise about 
using those words.
    Thank you very much, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Mr. Connolly of Virginia is recognized.
    Mr. Connolly. Thank you very much, Madam Chairman, and 
welcome to our panel.
    The relationship between the United States and Russia is a 
terribly important one. It is not perfect. It is a work in 
progress. I believe that Secretary Clinton and President Obama 
in setting the reset button took a wise and pragmatic course. 
We need to continue to put democratic pressure on institution 
building in Russia. We need to insist on transparency and 
accountability, but at the same time we must also recognize 
that its strategic location is unavoidable. We must engage with 
Russia and they must engage with us.
    One of the criticisms contained in some of the testimony 
today has to do with, of course, arms limitations treaties. 
That is a long tradition of American foreign policy on a 
bipartisan basis, and to call it a cornerstone of President 
Obama's dangerously naive policy of unilateral disarmament is, 
in my opinion, entirely over the top, unwarranted, and nothing 
but pure ideology, I look forward to hearing the testimony 
today.
    Chairman Ros-Lehtinen. Thank you.
    My Florida colleague, Mr. Rivera, is recognized.
    Mr. Rivera. Thank you, Madam Chair, and I look forward to 
hearing the testimony as well, particularly given the fact that 
there have been so many concerns raised about Russia's 
involvement in the region raised by colleagues earlier, 
particularly Chairman Rohrabacher, but also Russia's perhaps 
involvement around the world that runs counter to U.S. 
interests.
    And I will be interested to hear about commentary regarding 
Russia's involvement in this hemisphere as well. I will get 
into that during the question and answer session. But I also 
believe that it is important that we raise the issue of naivete 
with respect to Russia's previous performance on nuclear 
proliferation issues and what exactly should be the U.S. 
posture, given their track record which has been counter to 
U.S. interests. So I look forward to hearing that comment.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Chabot, our last opening remarker, the Subcommittee on 
Middle East and South Asia chairman.
    Mr. Chabot. Thank you, Madam Chair. I will forgo making an 
opening statement. I will note two things. I have a markup 
going on in Judiciary, so please note that is the reason for my 
absence in part of this meeting today, and I apologize for 
that.
    Secondly, I noted when I walked in, the presence of Tom 
Lantos' widow here today, and she of course attended many, many 
meetings over the years. And I have the distinct honor and 
pleasure of working both with Tom Lantos and under him when he 
was chair of the committee as well, and he is deeply, deeply 
missed. And he was one who truly stood for collegiality and 
bipartisanship, and we fought on various issues but we 
actually--this happens on this committee, we actually agree on 
some issues too, which is good.
    This chair is following in his footsteps in many ways. As 
Henry Hyde and Ben Gilman and some of the other real stars on 
Capitol Hill. So thank you; we miss him very deeply and we are 
glad to see you here today.
    Chairman Ros-Lehtinen. Thank you very much.
    And now we are so pleased to present our wonderful 
witnesses today.
    Katrina Lantos Swett established the Lantos Foundation for 
Human Rights and Justice in 2008, where she serves as President 
and CEO. She also teaches human rights and American foreign 
policy at Tufts University. Dr. Swett is, of course, the 
daughter of our former colleague, Tom Lantos, who was a leading 
member of our committee for many years and a former chairman. 
And we also had many of us, old-timers had the pleasure of 
serving with your husband Richard when he so well represented 
New Hampshire here in Congress. So thank you for being here 
with us, Dr. Swett.
    Ariel Cohen is the senior research fellow in Russian and 
Eurasian Studies and International Energy Policy at the 
Heritage Foundation. He is a frequent witness on Capitol Hill, 
including the House and Senate Foreign and Defense Committees, 
as well as the Helsinki Commission. Dr. Cohen has worked 
extensively with a range of national security agencies, 
including the Department of State, the Department of Defense, 
the CIA, the Defense Intelligence Agency, and many others. So 
thank you for being with us today, Dr. Cohen.
    And then we will hear from Dr. Steven Sestanovich, who is 
the Kathryn and Shelby Cullom Davis Professor of International 
Diplomacy at Columbia University School of International and 
Public Affairs, as well as Senior Fellow at the Council on 
Foreign Relations. Dr. Sestanovich was Ambassador-at-Large and 
senior advisor to the Secretary of State for the former Soviet 
Union from 1997 to 2001. He was also a member of the State 
Department's policy planning staff and senior director for 
policy development at the National Security Council during the 
Reagan administration. And as we know, this year is the 100th 
anniversary of Ronald Reagan's birth, and we hope that his 
legacy is recognized and celebrated every day for freedom and 
liberty. Thank you for all the enslaved people of the world.
    So thank you, excellent witnesses here today, and we will 
begin with Dr. Swett. Thank you.

  STATEMENT OF KATRINA LANTOS SWETT, PH.D., PRESIDENT, LANTOS 
                  FOUNDATION FOR HUMAN RIGHTS

    Ms. Swett. I want to thank you, Madam Chairman, for the 
opportunity to come today to present my views on the state of 
human rights and the rule of law in Russia. As you know, my 
late father, Tom Lantos, was a former chairman of this 
committee, and I am honored to have the opportunity to appear 
before his colleagues whom he both admired and deeply 
respected. My father was in some ways an old-fashioned man and 
he believed in the traditional notion that our partisan, if not 
our policy differences, should stop at the water's edge. For 
this reason he was one of the most profoundly bipartisan 
Members of the Congress when it came to matters of national 
security and foreign policy. And it is in that same spirit that 
I hope to present my remarks today.
    In December of last year I traveled to Moscow to witness 
the culmination of the second show trial of Mikhail 
Khodorkovsky, Russia's most prominent political prisoner. I 
went in order to speak out against the mockery of justice that 
it represented, and in doing so I was quite literally following 
in my father's footsteps.
    In May 2005 Congressman Lantos stood on the steps of the 
courthouse in Moscow to denounce the outrageous manipulation 
and abuse of the Russian judicial system represented by the 
targeted prosecution of Mr. Khodorkovsky. Sadly, things have 
only degenerated in the intervening 5 years. Whatever small 
shreds of legal plausibility the first Khodorkovsky trial may 
have had, there can be no doubt that the second trial had only 
one true purpose, and that was to keep a charismatic and 
compelling political adversary of Mr. Putin carefully locked 
away behind bars for as long as necessary.
    And what is it that makes Mr. Khodorkovsky such a threat to 
Mr. Putin? Above all, it is his vision of a Russia, open, 
transparent, and genuinely Democratic. Khodorkovsky stated with 
humility and conviction in his closing words to the court at 
the end of his trial when he said, ``I am not an ideal person, 
but I am a person of ideas.''
    And over the nearly 8 years of his incarceration Mr. 
Khodorkovsky has shown that he is prepared to make great 
sacrifices for those ideas, ideas of a Russia with an 
independent judiciary, where an individual's rights don't 
depend on the whim of the czar; ideas of a Russia where 
democracy and freedom of the press are a reality and not a 
facade; ideas of a Russia where the government is not the 
source of corruption and lawlessness but, rather, they are the 
nation's defender against such scourges.
    Mikhail Khodorkovsky is far from alone in believing in the 
importance of these ideas for the future of his country. While 
I was in Russia, I had the opportunity to meet with a variety 
of human rights activists, and they uniformly expressed the 
conviction that things were moving in a very bad direction in 
their country, from the unexplained violent deaths of over 150 
journalists, to ongoing violation of article 31 of the Russian 
Constitution, which protects the right of the people to 
peacefully assemble. They are deeply concerned about the future 
of democracy and pluralism, and they want our help in standing 
up for these rights.
    It was a bitter cold December day when I went to the Moscow 
courthouse, and I was taken aback to see many dozens of 
protesters standing across the street, quietly but eloquently 
expressing their support for Mr. Khodorkovsky, for Platon 
Lebedev, Sergei Magnitsky and other victims of an increasingly 
corrupt and undemocratic system in Russia. Their message to me 
was simple: Don't sacrifice the values on which we want to see 
the new Russia built. It is a message I believe we need to 
heed.
    Thank you very much and I look forward to answering your 
questions.
    Chairman Ros-Lehtinen. Thank you so much, Dr. Swett.
    [The prepared statement of Ms. Swett follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Dr. Cohen. And I apologize that our 
name plates do not recognize your academic credentials, as 
someone who worked mightily to finish my doctorate and earn my 
doctorate--I think those name plates were done by an embittered 
all-but-the-dissertation individual. Dr. Cohen is recognized.

 STATEMENT OF MR. ARIEL COHEN, SENIOR RESEARCH FELLOW, RUSSIAN 
EURASIAN STUDIES AND INTERNATIONAL ENERGY POLICY, THE HERITAGE 
                           FOUNDATION

    Mr. Cohen. Madam Chairman, it is a pleasure to be here. I 
am a senior research fellow at the Heritage Foundation and my 
views are my own and should not be construed as presenting the 
official position of the Heritage Foundation.
    I would like to thank you and Chairman Burton, before whom 
I testified recently on energy, and particularly my old friend 
Doug Seay for facilitating these hearings.
    For the last 2 years the Obama administration had touted 
Russia's reset policy as one the great diplomatic achievements. 
In March 2009, Secretary of State Hillary Clinton presented her 
Russian counterpart Sergei Lavrov with a red button symbolizing 
a new reset policy. Symbolic and prophetic as a result of the 
incompetent translation, the inscription on the button read 
``overload'' instead of ``reset.''
    Ever since, President Obama has spent an inordinate amount 
of time cultivating Russian President Dmitry Medvedev in making 
him his principal diplomatic interlocutor, despite the fact 
that Medvedev is Prime Minister Vladimir Putin's appointed 
protege with no political base of his own. The grave error of 
judgment made in assessing who was really in charge led to a 
chain of strategic miscalculations in relations with Moscow.
    While grooming Medvedev, the administration agreed to cut 
our strategic nuclear forces under the New START treaty; 
abandoned its original program of missile defense deployment in 
Poland and the Czech Republic; engaged Russia in futile missile 
defense talks; pursued a policy of geopolitical neglect in the 
former Soviet Union; and toned down the criticism of violations 
of the political freedom of which Dr. Lantos spoke so 
eloquently.
    However, the reality remains that Medvedev has only limited 
capability to deliver and looks increasingly like he is 
unlikely to continue in office. Putin still is Russia's 
``national leader'' and the real power behind and on the 
throne.
    Even with Medvedev as President, Russia still is willing to 
use force to achieve his geoeconomic goals as well. Control of 
energy corridors from the Caspian Sea to the Black Sea and 
beyond was the objective of the Russian military operation 
against Georgia in August 2008. This year Gazprom opened the 
Nord Stream pipeline from Russia to Germany with spurs to other 
European countries, increasing their dependence on Russian 
energy. This has been clearly confirmed by incidents of the 
last 2 decades involving delays in energy supplies to 
Azerbaijan and a number of other countries from the Black Sea 
to the Baltics.
    The concerns that U.S. policymakers should have vis-a-vis 
Russia to date are not limited to arms control, to Russia's 
vehement resistance to our missile defense plans in Europe, to 
energy policy and security in Europe. The concerns also should 
include the deterioration in this situation with human rights 
and rule of law.
    Just recently, in July, Russians banned Boris Nemtsov, the 
prominent opposition leader, from traveling abroad for 6 
months. In June the Russian Minister of Justice denied 
registration to Party of People's Freedom. In May, prosecutors 
opened the criminal investigation of a prominent anti-
corruption whistleblower, Aleksey Navalny, for what he said was 
revenge for exposing alleged fraud in Russian state companies. 
And in December 2010, former oligarch Mikhail Khodorkovsky and 
Platon Lebedev were sentenced in the second trial for 
additional lengthy terms in Siberian prisons on charges of 
embezzlement and money laundering the majority of legal experts 
agree are spurious.
    On May 31, the European Court of Justice ruled the Russian 
State had seriously violated Khodorkovsky's rights during his 
arrest and trial detention, and despite President Medvedev's 
clear statement about Khodorkovsky not being a threat to the 
public, the courts continued to reject his appeals for early 
release.
    Can I have 1 more minute?
    Chairman Ros-Lehtinen. Yes, sir.
    Mr. Cohen. Thank you so much.
    To conclude, the Obama administration and Congress need to 
recognize the reset with Russia, which would require huge 
payoffs with small results, is in a dire need of reassessment. 
The U.S. should pursue its national interests in relations with 
Moscow instead of chasing a mirage.
    The U.S. and Russia have multiple mutual interests in 
opposing Islamic radicalism and terrorism. We have joint 
concerns about non-proliferation, counternarcotics, boosting 
trade, investment expansion, tourism, business, and exchanges. 
Twenty years after the end of the Cold War and collapse of 
Communist Russia, Russia's anti-American policies should be 
over.
    The administration needs to stop its policy of pleasing 
Moscow, and instead add pressure on Russia to start its own 
reset for the benefit of its own people. In particular, 
Congress should ensure that missile defenses are developed for 
the benefit of American troops and allies, and prevent the 
administration from granting far-reaching concessions to Russia 
in negotiating short-range nuclear arms deals.
    Congress has an important role to play in changing 
relations with Russia in the energy field for the better, for 
the benefit of American business and the Russian people.
    Congress should send a strong signal that it cares about 
America's friends in the former Soviet Union and Eastern Europe 
and expand U.S. ties with those who reach out for freedom. And 
you have a great role to play to pass the bipartisan Senate 
1039, the expanded Sergei Magnitsky Rule of Law Accountability 
Act, that will deny visas to corrupt Russian businessmen and 
officials examining their banking practices and acquisitions 
and target Russian police and prosecutors----
    Chairman Ros-Lehtinen. Thank you.
    Mr. Cohen [continuing]. Who fabricate evidence, torture, 
and murder opponents. Thank you very much.
    Chairman Ros-Lehtinen. Thank you so much, Dr. Cohen.
    [The prepared statement of Mr. Cohen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. And Ambassador Sestanovich.

STATEMENT OF THE HONORABLE STEVE SESTANOVICH, GEORGE F. KENNAN 
  SENIOR FELLOW FOR RUSSIAN AND EURASIAN STUDIES, COUNCIL ON 
                       FOREIGN RELATIONS

    Mr. Sestanovich. Madam Chairman and members of the 
committee, thank you for inviting me to join in today's 
discussion. The 20th anniversary of the Soviet Union's collapse 
is a good moment to reflect on Russian-American relations. I 
too wish we could hear what Tom Lantos had to say about it.
    I will focus my remarks today on three issues: First, how 
Russia and the U.S. restored broadly cooperative ties after 
2008; second, why their relations are still marked by 
frustration and friction; and, third, how to address areas of 
disagreement going forward.
    Three years ago many experts thought Russian-American 
relations were in for a prolonged chill. Their expectations 
proved almost entirely wrong. Russia and the U.S. ratified a 
new treaty on strategic arms reductions. They have cooperated 
in support of military operations in Afghanistan. They joined 
in passing a new round of U.N. sanctions against Iran. They 
collaborate against the proliferation of missile materials and 
international drug trafficking.
    Even popular attitudes are beginning to change. Last year 
the percentage of Russians who had a favorable view of the 
United States reached its highest level, 60 percent, in a 
decade and a half. The reset has, of course, focused on issues 
where the practical benefits for both sides are clear-cut: 
Predictability in strategic arms reductions, nuclear non-
proliferation, counterterrorism and so on.
    But the fact that the benefits of cooperation are obvious 
does not make them less important to our national interests. 
And there are tentative signs that Russia may be rethinking--in 
our direction--what is in its interest.
    In light of these benefits, why does the reset evoke so 
many mixed feelings? There is clear hesitation in both 
countries about the next steps that seem to be on the agenda. 
Madam Chairman, both you and Mr. Berman have rightly mentioned 
many of these problems, from aggression against Georgia to 
human rights abuses. In the U.S. there is ambivalence about 
graduating Russia from the coverage of the Jackson-Vanik 
amendment. In Russia there is ambivalence about cooperating 
with NATO on missile defense.
    The legacy of the Cold War plays a part in these attitudes, 
but something deeper is at work. The next steps of the reset 
require a level of mutual respect and trust that Russia and the 
U.S. have not yet developed. Russia's domestic evolution since 
the Soviet collapse has been deeply disappointing. Its own 
President complains of corruption and lack of political 
competition. He is right; Russia lags behind other post-
Communist nations in its embrace of democratic norms. In this 
light, it is hardly surprising that Members of Congress 
hesitate to abandon legislation that embodies our human rights 
concerns.
    Russia's reluctance to work with NATO and missile defense 
may originate in Cold War thinking, but that is not the only 
factor. Even close allies have great difficulty sharing 
information and plans that affect their ultimate security, and 
Russia and NATO are not close allies.
    Given these obstacles to cooperation, does the reset need a 
pause? I know that is in the title of today's hearing, Madam 
Chairman, but it is the wrong approach. It does not serve our 
interest to undo cooperation developed over 20 years by 
Presidents of both parties. Our troops in Afghanistan don't 
want to pause, nor do our New START Treaty inspectors. But we 
do need to carry forward the reset without pretending that 
Russia and the United States have obtained a greater degree of 
mutual trust and respect than they have.
    To keep this policy on the realistic footing it requires, 
we need to develop relations step by step. Let me say a word 
about how to do so on two important issues. Congress is, for 
good reason, uncomfortable about graduating Russia from 
Jackson-Vanik unless we have a clearly articulated policy 
toward human rights and democracy in Russia. Legislation to 
take the place of Jackson-Vanik can play a part. Members of 
both houses have proposed to focus on the worst abuses by 
individual Russian officials. Such measures, carefully 
designed, may strengthen American policy, but they are not the 
end of the story. Congress needs to look at other ways of 
modernizing our human rights policy in the spirit of Jackson-
Vanik by increasing support for civil society groups, for 
electoral monitoring and so forth.
    As for missile defense, if Russia resists full-blown 
cooperation with NATO, other approaches are available to it. 
This should hardly be a crisis in Russian-American relations. 
Administration officials have publicly suggested that the best 
way for Russia to explore the pluses and minuses of greater 
cooperation is to get inside the tent. This is good advice.
    The agreement to create a joint data exchange center, 
signed back in 2000, is one place to start. It would be a 
clearinghouse for trading early warning information on missile 
launches; 11 years later it is still waiting to be implemented.
    Madam Chairman, I appreciate the opportunity to discuss 
these and the other issues with you and your colleagues and 
with the other witnesses here today.
    Chairman Ros-Lehtinen. Thank you, Mr. Ambassador.
    [The prepared statement of Mr. Sestanovich follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                              ----------                              


    Chairman Ros-Lehtinen. Thank you to all of our witnesses. I 
will begin the question and answer period, thank you.
    The news that the Kremlin has banned Boris Nemtsov, a 
leader of Russia's democratic movement as I spoke about in my 
opening statement, from leaving Russia if he returns from his 
current visit to France, is I believe a dramatic evidence that 
Putin's government intends to continue to persecute its 
opponents and prevent their participation in the upcoming 
parliamentary elections. This is more evidence, if more were 
needed, that the Obama administration's reset policy of giving 
Moscow one concession after another in an effort to buy better 
behavior from Russia has failed.
    And let me ask each of the witnesses three questions. I 
know our time is limited.
    What can the U.S. do to provide assistance to Russia's 
democratic movement efforts to bring democracy to their 
country?
    Number two, what steps should the Obama administration take 
regarding this latest action by the Kremlin about Mr. Nemtsov?
    And, three, what will the impact on the democratic movement 
be if the U.S. reaction to this act is only mild criticism?
    And we will start with Dr. Swett.
    Ms. Swett. Well, I think that the most critical thing that 
the U.S. Government can do--and this is where I think there are 
concerns with the way the reset policy has been perceived both 
within Russia and outside of Russia--that is, that we must get 
away from the notion that we completely delink Russia's 
behavior and performance on issues of human rights, rule of law 
and democracy from all of our other broad-ranging concerns in 
our relationship to Russia.
    The notion of delinking what are our most profound values 
and which, frankly, are the values that ensure the ongoing 
stability, strength, vitality, and success of any society from 
other concerns is, I think, where we begin to go off the track.
    And so I believe that in specific response to your question 
we need to once again make it clear to the Russian Government 
that we will not confine our response to their slide away from 
democracy and toward authoritarianism.
    Chairman Ros-Lehtinen. Thank you.
    Ms. Swett. To simply, you know, mild and weak-kneed 
protestations that are routinely ignored and frankly are viewed 
as simply something for domestic consumption.
    Chairman Ros-Lehtinen. Thank you.
    Ms. Swett. And that is understood not only by the Russian 
Government but by the very democracy activists, the very human 
rights leaders who we need to express strong support for.
    Chairman Ros-Lehtinen. Dr. Cohen, and Ambassador?
    Mr. Cohen. First of all, Congress could, I think, invite 
Boris Nemtsov at the earliest opportunity to testify about the 
conditions of democracy and human rights in Russia. Mr. Nemtsov 
is a former first Deputy Prime Minister. He was a very high-
ranking official. He is no extremist, he is no terrorist, and 
this is inexcusable that he was treated like that. He also was 
jailed for 10 days for attending a nonviolent demonstration.
    Secondly, what I already mentioned, the Sergei Magnitsky 
Rule of Law Accountability Act against people who are abusing 
the old laws, against people who are abusing their old legal 
system. And just as we failed to send strong messages of when 
Khodorkovsky was first jailed in 2003, when Magnitsky got 
killed in 2009--these are signature events that the Russian 
Government is watching like a hawk, how does the West react?
    Chairman Ros-Lehtinen. Thank you.
    Mr. Cohen. Not only do we need to react but our Western 
European allies also need to react.
    Chairman Ros-Lehtinen. Thank you, Dr. Cohen. Mr. 
Ambassador.
    Mr. Sestanovich. Madam Chairman, it would be hard to think 
of a better way for Putin's government to look like Leonid 
Brezhnev's government than by what they did with Boris Nemtsov. 
And it is the kind of opportunity for senior officials in the 
legislative and executive branches to convey to their Russian 
counterparts that if the reset is to advance, actions of this 
kind are a threat to it.
    I agree with my colleagues; the right response in the first 
instance is attention, attention, attention. Dr. Cohen is 
exactly right. The Magnitsky bill has gotten a lot of attention 
in Moscow.
    I would add two other points. Our friends in Europe and 
throughout Europe, and particularly in European Parliament and 
the Council of Europe have taken the lead in talking about a 
lot of these issues. We want to speak with one voice with them.
    Secondly, it seems to me important that American efforts to 
support Russian civil society, election monitoring, and other 
activities of this kind be fully funded.
    Chairman Ros-Lehtinen. Thank you very much. Mr. Berman is 
recognized.
    Mr. Berman. Well, thank you. The chair's question brought a 
certain level of consensus to the three panelists in terms of 
linkage and particular reference to the Magnitsky bill.
    Boris Nemtsov was always thought of as one of the most 
enlightened and progressive thinkers of the post-Soviet era, 
and did some amazing things as a local governor and later on in 
Moscow, and it was sort of a shocking development to see that 
action taken.
    But on the larger scale, Dr. Cohen and Ambassador 
Sestanovich seem to have very different conclusions about the 
reset. Dr. Cohen talks about naivete, paltry gains, totally 
misplaced judgment by the administration in focusing on 
Medvedev. And Ambassador Sestanovich thinks the notion of a 
pause right now is a mistake.
    In a careful, calculated way, once you continue to pursue 
the reset with very realistic understandings about our 
differences, and without any intent of sweeping those 
differences under the rug, I would like each of you to--perhaps 
starting with you Ambassador Sestanovich--to take the 
fundamental thrust of Dr. Cohen's testimony and address where 
you differ from it, and Dr. Cohen with Ambassador Sestanovich.
    Mr. Sestanovich. Thank you, Mr. Berman. I would dispute the 
idea that the principal theme of the reset has been pleasing 
Russia. I would say it has been to find areas where cooperation 
between Russia and the United States can serve American 
interests. And I think the record has been good there. And I 
don't think that the Russian Government has been particularly 
pleased by the way in which American officials have kept the 
issue of Russia's domestic evolution prominent in their public 
discussion.
    Dr. Cohen and others have talked about Russian aims in a 
way that I find perfectly accurate. There is, to my mind, no 
doubt that Russia would like to divide NATO. Madam Chairman, 
you said that yourself. I don't think there is any doubt that 
Russia would like to strengthen a sphere of influence on its 
borders. I think it wants the international respect that 
enables it to ignore criticism.
    But my question would be, to quote a well-known American 
politician, ``How's it working out?'' I don't think all that 
well. Just this week the Ambassadors of NATO and the Secretary 
General went to Russia to say Russia's objections to NATO's 
missile defense plans are a nonstarter. You know, let's keep 
talking, but we are not interested in the kind of proposal you 
have in mind. They are getting nowhere there.
    On a sphere of influence, the Russians began the Obama 
administration trying to bribe the Kyrgyz Government to oust 
the United States from its base in Kyrgyzstan. Today that base 
is still there and the Russians have had to back off.
    International respect. I say in my testimony that Russia 
enjoys less respect internationally than other post-Communist 
nations. And this hearing and the comments of all the witnesses 
and of all the members indicate that Russia's internal 
evolution remains a hot topic in the West.
    Mr. Berman. Let me just, since there is not really enough 
time for you to respond, I will use my last 20 seconds to make 
my own point and hopefully we can get your response later.
    But I have vivid memories. By 2008, it was that 
administration, the administration that preceded Obama's, that 
had delinked all issues. It was pursuing U.S. nuclear 
cooperation with Russia even as Iran was--Russia was doing 
nothing to help us deal with Iran's nuclear weapons program. It 
was pushing the missile defense without getting any particular 
broader support from Russia on any issue. Every issue was in 
its own different category, and there was no linkage.
    I do think one wants to have a coherent and comprehensive 
policy here and that things are much closer to that these days 
than they were 2\1/2\ years ago.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman. Mr. 
Rohrabacher is recognized, the Subcommittee on Oversight 
Investigations chairman.
    Mr. Rohrabacher. Thank you very much, Madam Chairman.
    Ms. Swett, how many political prisoners are there in Russia 
today?
    Ms. Swett. Well, I couldn't give you a specific figure on 
how many political prisoners there are, but I can tell you 
there are millions of intimidated Russians.
    Mr. Rohrabacher. I am not asking that.
    Ms. Swett. There are untold numbers of people in Russia who 
are intimidated from fully exercising their rights to----
    Mr. Rohrabacher. No, I am not asking you that at all. How 
many political--you have an organization that focuses on 
political prisoners. You cannot tell me the number of political 
prisoners that Russia has. Of the deaths--you said there were 
150 deaths of journalists in Russia.
    Ms. Swett. Yes. Unexplained violent deaths.
    Mr. Rohrabacher. Over what period of time?
    Ms. Swett. Over a period of about 7 years now.
    Mr. Rohrabacher. 7 years. So in the last 7 years there have 
been 150 journalists who have met death, of some sort of 
violent death.
    Ms. Swett. Have met their deaths under extremely suspicious 
circumstances; not in a war zone, but while covering 
corruption, human rights abuses.
    Mr. Rohrabacher. Could you send us for the record the list 
of people you consider specifically political prisoners?
    Ms. Swett. I would be happy to.
    Mr. Rohrabacher. And a list of those journalists?
    Ms. Swett. Absolutely.
    Mr. Rohrabacher. I went to a meeting with Russian 
journalists who were complaining, and their numbers were far 
less than what you are presenting to us today. And when I 
questioned them specifically--you were there, Ileana--whether 
or not they were blaming these deaths on the administration, 
meaning Putin and Medvedev, or whether they were just saying 
that Medvedev and Putin had not done enough to follow through 
after the deaths to deter future type attacks, they were very 
clear that they were not blaming Medvedev and Putin for these 
deaths. And this is a whole different image that is being 
presented to us today.
    Mr. Sestanovich, when we worked in the Reagan White House, 
wasn't that your impression, as it was mine, that President 
Reagan expected that someday we would actually work on a joint 
missile defense system with a democratic Russia?
    Mr. Sestanovich. Uh----
    Mr. Rohrabacher. The answer is yes, because I was there for 
a while.
    Mr. Sestanovich. I think the answer is certainly yes, 
Congressman. It would have to be described as his hope. I don't 
know whether it was his strong expectation.
    Mr. Rohrabacher. Right. That was his goal.
    Mr. Sestanovich. Yeah.
    Mr. Rohrabacher. His goal was to have a situation with 
Russia. Was his goal to continue NATO after Russia pulled back 
from Eastern Europe and went through a democratic process?
    Mr. Sestanovich. Gee, it would only be common sense to 
think it was.
    Mr. Rohrabacher. Yeah. Would you think it would be fair for 
Russia to think of that as a belligerent act for us, instead 
of--when they had pulled back all of their troops from Eastern 
Europe, but instead we expanded NATO to their doorstep?
    Mr. Sestanovich. No.
    Mr. Rohrabacher. You wouldn't think that that would be 
considered belligerent? How about if Russia during that time 
period decided that they would send nuclear weapons to, let's 
say, Venezuela or some other country that was deciding they 
didn't like the United States?
    Mr. Sestanovich. In politics, Congressman, I think you have 
to ask what the purpose of any action is, and I guess I would 
be a little disturbed by thinking about what the purpose of 
such an action on the Russian part would be.
    Mr. Rohrabacher. I would think the Russians might be 
concerned that maybe we weren't being as friendly as we said we 
were going to be, once the disintegration of the Communist 
Party leadership in Russia took place, by us expanding NATO to 
their borders and expanding a missile defense system which 
would neutralize their missiles.
    Listen, I am not saying these things. These things are 
not--and the people are saying, is this a moral equivalency 
argument? The answer is, yes, it is. And the bottom line is we 
have lots of problems in the United States, and so do the 
Russians. For example, we heard that today Madam Chairman 
mentioned a statement about a billy club and a protest.
    Dr. Cohen, am I mistaken that there are protests that are 
permitted in Russia today as compared to the Soviet Union? 
There were no protests. Am I wrong that you go to the kiosk and 
you can actually find newspapers that are printed against the 
regime, and even in broadcasts you can hear radio people like 
Rush Limbaugh in Russia complaining about Mr. Putin. Well, my 
visits to Russia, people say that that is what they are 
hearing; and these are not communists, former communists, so 
they are all wrong; is that correct?
    Mr. Cohen. Mr. Rohrabacher, you know as well as I do----
    Chairman Ros-Lehtinen. Thank you. The time is up. But you 
can answer, just a short answer if you could.
    Mr. Cohen. I thought I was asked a question.
    Chairman Ros-Lehtinen. I know but his time is up.
    Mr. Cohen. All right. Russian national television is under 
100 percent state control. Russian protesters are beaten by the 
heavily armed special police called the OMON. And yes, there 
are political prisoners in Russia, Mr. Rohrabacher. Amnesty 
International.
    Chairman Ros-Lehtinen. Thank you very much. Mr. 
Faleomavaega, the ranking member on the Subcommittee on Asia 
and the Pacific, is recognized.
    Mr. Faleomavaega. Thank you, Madam Chair. I appreciate the 
dialogue and certainly the statements that have been made from 
our witnesses. It is very interesting to note that we have two 
highly respected experts who have such divergent views 
concerning our relations, our bilateral relations, with Russia.
    In the 4 years that I held the chairmanship of the 
Subcommittee on Asia and the Pacific it was my privilege to 
visit Central Asian countries. And one of the things that 
always seems to gnaw at me are the criticisms that we say that 
these Central Asian countries are not moving fast enough to 
become full democracies.
    I suspect that probably 99 percent of our community, the 
country, in our country, probably have no idea that these 
Central Asian countries were colonies of the Soviet Union for 
some 100 years. So when we talk about democracy and human 
rights and all these issues, certainly very, very high as far 
as we are concerned as a country, but these countries have had 
a very different mentality that they were living under, under 
the former Soviet Union.
    As I recall, I think it was a couple of years ago that 
President Medvedev for the first time ever since after the Cold 
War, he visited Berlin and he gave what I thought was one of 
the very profound speeches that I have ever read and tried to 
pay it a little attention was the fact that, why are Western 
countries so put out about having to continue NATO, other than 
the fact that the Cold War is over, and as far as Russia is 
concerned, having this missile system wasn't really pointed at 
Iran, it was really pointed at Russia.
    Now, I would like to ask Ambassador Sestanovich for his 
comment on this. Do you think that President Medvedev's 
observations of what has happened between--another problem 
here, when Russia became more democratic, or after the Cold 
War, it is my understanding that for some 10 years we failed as 
a country to assist Russia with its economic needs. And I want 
Ambassador Sestanovich to comment on that.
    Mr. Sestanovich. Can I say a word first about Central Asia 
and not moving fast enough? Some are and some aren't. You have 
a very broad spectrum of developments there with Kyrgystan on 
the verge of being a real democracy and others deep in 
dictatorship. I think there is undoubted Russian disappointment 
about the level of assistance that it got from the West in the 
1990s. That doesn't mean there wasn't a lot of assistance and 
in fact--if you take together all assistance programs, it comes 
to a rather substantial level.
    But I think most--a lot of Russians would tell you it all 
went into the pockets of criminal businessmen or corrupt 
bureaucrats. There is a sense that they didn't get much out of 
the assistance that you are talking about----
    Mr. Faleomavaega. I am sorry, Mr. Ambassador. My time is 
running, and I know Madam Chair is very good about this. Can 
you comment about what was she doing on the Jackson-Vanik law 
that seems to aid us all these years? Why should we get rid of 
this? Is it still relevant in our current relations with 
Russia?
    Mr. Sestanovich. Jackson-Vanik doesn't do us much good 
anymore, and Russia should be graduated from Jackson-Vanik when 
it joins the WTO. But Congress can play an important role in 
finding and helping to articulate a new policy for human rights 
and democracy in Russia.
    Mr. Faleomavaega. The problem that I have is that sometimes 
the Members use Jackson-Vanik as leverage for other unrelated 
issues that come before the legislative calendar or the 
schedule that we have here as Members of the Congress.
    Dr. Swett, I just wanted to ask you--I know as a great 
champion of human rights--I just wanted to ask you, when we 
have bilateral relations--let's take Russia--sometimes we have 
to make priorities. Our country is not an angel either. The 
fact that at the height of the Cold War, talk about human 
rights, forget it. We were propping up dictators all over the 
world just for the simple fact, as long as they are supportive 
of our policies, we didn't mind them abusing and all the 
terrible things that they did to their respective countries. 
And that didn't go very well.
    I just wanted to ask you, you put all these things 
together, human rights, national security, economic interests, 
and democracy. How would you put human rights in this pot or 
this chop suey, if you will? Where does human rights come in? 
Should it be a number one priority? Or should it be considered 
in other issues that are more important than just human rights?
    Ms. Swett. Well, obviously, human rights----
    Mr. Faleomavaega. My time is up.
    Ms. Swett. Obviously, human rights cannot be the only 
driver of our foreign policy. We have a huge range of concerns 
from our national security concerns, our economic concerns, our 
energy needs. There are a wide range of issues. But I think if 
the recent events, particularly in the Middle East, have shown 
us anything, it has shown us that we make a poor deal when we 
decide to settle for the so-called friendly tyrant 
relationship; that if a tyrant is friendly to our other 
interests, we sort of overlook their rampant abuses of their 
own population. Because we have seen stunning speeds of 
collapse of regimes in other parts of the world that we were 
convinced were our bulwarks in that region. So I think it needs 
to be a central priority but certainly not the only one.
    Chairman Ros-Lehtinen. Thank you. Mr. Rivera of Florida is 
recognized.
    Mr. Rivera. Thank you very much, Madam Chair. Before I 
begin with my questions, I also want to recognize and 
acknowledge Dr. Swett's father, Tom Lantos, and Mrs. Lantos for 
being here. Certainly his passion for human rights around the 
world has been noted. But in particular, I want to acknowledge 
his work on behalf of human rights in Cuba. I know for years 
and years he was an advocate and a friend of the human rights 
movement, and certainly his passion on behalf of human rights 
in Cuba in recent years, in particular with what we've seen on 
the human rights crackdowns under Raul Castro, Congressman 
Lantos' passion has been vindicated and his vision for what 
needs to be done with human rights in Cuba has been vindicated.
    I will begin my questions with Ambassador Sestanovich 
regarding Belarus. As we know, one of the last bastions of 
Stalinist totalitarian communism rule in the world, other than 
Cuba and North Korea certainly, what exactly is Russia's role 
in sustaining that Stalinist dictatorship in Belarus? What has 
been their role perhaps in terms of making sure that there 
could be any types of reforms whatsoever, if any has existed, 
would that Stalinist dictatorship exist but for Russia's 
support? Just generally, what is their role?
    Mr. Sestanovich. The Russians can't figure out what to do 
with Belarus, because you are right, they sustain it with 
subsidies, with cheap energy, with a measure of investment. But 
they put recurrent pressure on the regime. They have been 
cutting off electricity. They cut off gas. If there is any one 
government in the world that has done more to put the 
Lukashenko regime under threat than the Russian Government, I 
don't know which one it is. So there is a kind of incoherence 
there.
    Mr. Rivera. And anything that can be done on our part?
    Mr. Sestanovich. We have to continue to work with Belarus' 
democratic neighbors, with other European countries that are 
very concerned and have kept their attention on this issue. 
Lukashenko has been a stubborn and rather resilient force. But 
he is totally isolated in Europe, and that can't last.
    Mr. Rivera. And certainly a threat to some of our critical 
allies such as Poland. We know what happened in terms of their 
relationship there.
    But in my last 2 minutes, I will yield to Chairman 
Rohrabacher who I believe wanted to continue his colloquy.
    Mr. Rohrabacher. Thank you very much. Let me just note, I 
love Tom Lantos and I miss him every day and especially in the 
fight for human rights. And with that said, we have had 
enormous, enormous progress in Russia in human rights compared 
to what it was 25 years ago. And by ignoring that and by 
focusing totally on the shortcomings--and there are many 
shortcomings in the current Russia--we are not doing justice by 
Mr. Lantos or anybody else. The bottom line is, we should be 
siding with those people who are struggling for democracy, but 
not ignoring the fact that today the churches are filled in 
Russia.
    And Dr. Cohen, I don't know where you were, but I have been 
in Russia and have been shown, just walked right down the 
street and said, here are several publications that are being 
sold right here that are anti-Medvedev and Putin. Those things 
would have never happened under the old Russia, never.
    And let us also note, China is the world's worst human 
rights abuser and the comparison of how we treat China 
economically as compared to Russia, there is just no 
comparison. We are bending over backwards to send all sorts of 
investment into China and to strengthen them while they have no 
reform, no human rights reform. And in Russia where they have 
at least had a lot of progress and that, we still keep them 
under the grips of Jackson-Vanik and other restrictions that 
were put on the Cold War. This is ridiculous. And I would hope 
that we understand they have future progress with Russia, but 
we need to treat it I think a little more honestly. So that is 
all I needed to say. Thank you very much.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Rivera. 
Thank you, Mr. Rohrabacher. Mr. Meeks, the ranking member on 
the Subcommittee on Europe and Eurasia, is recognized.
    Mr. Meeks. Thank you. I just want to note for the record 
that I agree with Mr. Rohrabacher.
    Chairman Ros-Lehtinen. The Earth is shaking.
    Mr. Meeks. Let me just ask real quick because some of--I 
guess the reason we are here is asking whether or not the 
administration is moving in the right direction or the wrong 
direction. So I will ask each panelist first, what are your 
thoughts? Should we pause reset or continue with reset?
    Ms. Swett. I would not so much suggest pausing reset as 
supplementing reset with a more vigorous and outspoken human 
rights dimension to our policy vis-a-vis Russia, and I think, 
Congressman Rohrabacher, the reason there is such a heightened 
level of concern about the human rights situation in Russia is 
because it has been moving decidedly in the wrong direction. I 
agree with you. China's situation is more abusive, is more 
troubling. But what is always disturbing is to see when you 
lose ground.
    Mr. Meeks. Let me go on. I don't want to lose my time.
    Ms. Swett. Yes, sir. Sorry.
    Mr. Cohen. Thank you. I think this is the time for 
reassessment. The reset policy was applied for about 2\1/2\ 
years. We are at a good midpoint. We need to reassess. For 
example, on Syria, Russia still insists on selling arms to 
Syria. On Iran, Russia is pushing back. Even on the U.S. 
unilateral sanctions that we are sovereign to do, there is 
Russian pushback.
    Mr. Meeks. So should we pause reset or should we continue 
it?
    Mr. Cohen. We should pause and reassess. Not just pause. We 
have to rethink it, sir.
    Mr. Meeks. Mr. Ambassador.
    Mr. Sestanovich. Well, the reset policy has included an 
awareness of the kinds of difficulties that Dr. Cohen 
mentioned, and has tried to keep them in perspective while 
seeking cooperation that will serve our interests. And that 
seems like an approach that is worth continuing, although I 
would note that to go forward in the next step of the reset 
that the administration cares about most, which is WTO, 
Jackson-Vanik graduation, I think it will need to think harder 
and the Congress will need to think harder about how to come up 
with a modernized approach to democracy and human rights in 
Russia.
    Mr. Meeks. You are headed toward what my next question was. 
And I guess I will go to Dr. Cohen real quick, because the 
opposition and a lot of the human rights groups seem to be in 
favor of continuing reset. So I am wondering if we pause reset, 
then who really would be the beneficiaries and what would 
happen on the ground when you see individuals who are most 
affected by what has taken place saying, reset is a good thing? 
What would happen if we did pause, who would be the 
beneficiaries?
    Mr. Cohen. Sir, I am a native Russian speaker. I read what 
the opposition says in the original, and I talk to them 
personally, and I know a lot of these people. I pretty much 
know all of the leaders of the opposition. It is my impression 
that the opposition is very critical of the human rights, rule 
of law and property rights protection aspects of the reset.
    For example, we have a commission that is co-chaired by Dr. 
McFall, the Ambassador-designate, and Vladislav Surkov, the 
architect of the current Russian political system. The 
opposition is very critical that this commission is not making 
its voice heard on those abuses of human rights. They are doing 
everything, from assisting pregnant mothers to other things 
that have very little to do with the opposition. I would argue 
this administration subverted their original agenda of our 
concern about human rights in Russia.
    Mr. Meeks. Dr. Swett.
    Ms. Swett. Well, I think that I experienced the same thing 
when I met with human rights leaders in Russia in December. And 
that is what the current Russian Government would like to do, 
would be to focus on sort of, if you will, the feel-good 
aspects of human rights--social assistance and things like 
that--but that there is an increasingly hostile and difficult 
climate when it comes to securing the architecture of rule of 
law, the architecture of----
    Mr. Meeks. Let me ask because I only have 20 seconds left. 
Just asking, should Russia get into the WTO? Yes or no? I only 
have 14 seconds. Yes or no, Dr. Swett?
    Ms. Swett. Well, I think that--I am not going to give you a 
yes or no answer on that because I do not consider myself an 
expert on that issue. But I think we need to proceed with 
caution on Jackson-Vanik.
    Mr. Meeks. Ambassador, yes or no?
    Mr. Sestanovich. If they meet the usual commercial terms.
    Mr. Meeks. Dr. Cohen?
    Mr. Cohen. Not yet, but eventually, when they meet the 
usual criteria.
    Chairman Ros-Lehtinen. Mr. Bilirakis, our Florida 
colleague.
    Mr. Bilirakis. Thank you very much, Madam Chair. I 
appreciate it. I am not sure if this issue has been addressed, 
but I was wondering what the panelists think about any 
potential conflict that could arise over the claims of the 
Arctic sovereignty. As we know, natural resources are abundant 
in the Arctic and there has been a concern that Russia is 
trying to exercise exclusive control over this area. While we 
currently are in a state of peace with regard to the Arctic, do 
any of you believe there will be a future so-called Cold War 
when it comes to sharing the Arctic?
    Mr. Sestanovich. I am sure there will be competition over 
resources, but I am not an expert on this issue.
    Mr. Cohen. The Russian claims for 4 million square miles in 
the Arctic are spurious. They did not succeed to prove these 
claims, in the U.N. Tribunal under the Law of the Sea Treaty, 
but I think that the military competition is avoidable. I think 
we have the Arctic Council that the Russians are a party of.
    We do not have enough resources currently. We don't have 
the icebreakers, we don't have the military capabilities to 
seriously protect our rights and our territorial waters and 
resources in Russia.
    But yes, Russia does have Arctic policy and Arctic claims, 
and it is a huge priority for them, because they own huge 
amounts of oil and gas, in particular, in their exclusive 
economic zone and possibly beyond.
    Ms. Swett. It is not an area of my expertise, but one 
certainly gets the impression that--to use a basketball 
metaphor--they are trying to box out there.
    Mr. Bilirakis. Thank you. Thank you, Madam Chair. I yield 
back.
    Chairman Ros-Lehtinen. Thank you so much. Mr. Connolly of 
Virginia is recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    Ambassador Sestanovich--and I welcome comments from the 
other panelists as well. In the West, there is lots of 
speculation about whether there really is this sort of a byplay 
between Prime Minister Putin and President Medvedev or is it 
just sort of for show, more of a good cop/bad cop routine but 
actually beneath the surface nothing changes?
    And I guess I would ask two questions about that. One is, 
do you think that the differences between the two are real and 
perhaps, over time, telling? And secondly and aside from that, 
were there the course of democratic institution building, it 
seems to me that in the last decade or so, we are seeing 
enormous retrogression--you know, the appointment of governors 
rather than the election of governors, the suppression of 
political parties, the suppression of the media. It sort of 
starts to look like the old Russia, not only in the Soviet 
times, but even in the czarist times, the lack of free 
expression and free institution.
    So I have every reason to be hopeful that over time we are 
making progress, or is that just American naivete that doesn't 
really take into account the situation on the ground?
    Mr. Sestanovich. There is no doubt that Putin picked 
Medvedev because he thought he was the most controllable 
President he could imagine, and there is no doubt that since 
Medvedev became President, Putin has remained the dominant 
political figure in Russia.
    But I think it is wrong to say that beneath this--to use 
your words--beneath the surface, nothing changes. The area is 
more political ferment, more political debate, more questioning 
of precisely the institutional arrangements that you have 
talked about in Russia 3 years ago, 6 years ago, 9 years ago. 
And while we shouldn't be naive about where that can go, it is 
to me significant that as many Russian political figures that 
speak on this subject have talked about the need for more 
political competition. Polls show that the Russian people want 
more political competition. So something is happening, even 
below the surface and on the surface, and we need to watch it 
carefully.
    Mr. Connolly. Dr. Cohen.
    Mr. Cohen. Medvedev and Putin publicly disagree on a number 
of very important issues, both symbolic, and on issues directly 
relevant to American national interests. For example, as I am 
saying in my testimony, Putin is consistently criticizing the 
U.S., he accuses us of fomenting the descent and revolution in 
the Middle East. He accuses us of using social media such as 
Facebook, et cetera. He recognizes the legacy of Joseph Stalin, 
calling him an effective manager. He called the collapse of the 
Soviet Union the greatest geopolitical catastrophe of the 20th 
century. And Medvedev responded and said, ``No, the greatest 
geopolitical catastrophe of the 20th century for Russia was the 
October Bolshevik putsch.'' This is highly symbolic.
    Medvedev is much more outspoken on human rights and the 
rule-of-law issues. He recognizes the corruption, including 
corruption in courts. This is a real ideological competition. 
But as a politician, you recognize that if one side has the 
political power and the other side is very weak politically, as 
is the case, unfortunately, for Mr. Medvedev, it is no contest. 
And even if--which I think these chances are declining--even if 
Medvedev is going to be renominated and then formally elected 
as the next President of Russia, the deal with Putin is going 
to be, Putin is the boss and Medvedev is--excuse my French--the 
Queen of England.
    Now, I think at the end of the day it is not going to 
happen. I think Putin is going to be the President of Russia 
with full powers, but I don't have my crystal ball with me here 
today, and I will not bet money on that. Thank you.
    Chairman Ros-Lehtinen. Mr. Connolly, I want to ask--you had 
7 seconds left--but Mr. Deutch is needed for a Judiciary vote 
and so is Mr. Berman. So could I steal those 7 seconds from 
you?
    Mr. Connolly. Absolutely, Madam Chairman. And I apologize 
to Dr. Swett for the fact that she does not have time to 
respond. Perhaps at the end of the hearing we will allow her 
to.
    Chairman Ros-Lehtinen. Thank you so much. Mr. Deutch is 
recognized.
    Mr. Deutch. Thank you, Madam Chair. I would also like to 
say to Dr. Swett and Mrs. Lantos, I would like to particularly 
acknowledge Tom Lantos' fight for Soviet Jewry. I spent last 
Friday evening in a synagogue in Moscow, something that would 
have been awfully hard to imagine some 20 years ago. And I just 
wanted to acknowledge his leadership in that struggle.
    Ambassador Sestanovich, I spent much of last week while in 
Russia talking about accession to the WTO with various members 
of the Russian Government. In particular, I spoke at length 
with the Minister of Economic Development, who happens to be 
here this week on that issue. And it is clear that WTO 
membership is a priority for the Russians and for the United 
States. But casting a shadow over this whole process is the 
Russian occupation of 20 percent of our strategic ally, 
Georgia. There is a fundamental disagreement between the United 
States and Russia, and between Russia and the rest of the 
international community for that matter, on Georgia's 
territorial integrity. And any resolution to Georgia's wish to 
have their customs agents on its borders, should accession be 
completed, could actually have a significant impact on deciding 
where those borders ultimately lie, where they are recognized 
internationally. Can you speak to how you see this playing out?
    Mr. Sestanovich. It is hard to be hopeful that there will 
be a compromise on the issue, because for all the parties there 
are rather fundamental issues involved, and for Georgia in 
particular. It is hard to put pressure on the Georgians to 
yield on an issue that involves its sovereignty, where there is 
a military occupation of two of its provinces. Both the 
Russians and the Georgians seem pretty dug in here, and the 
United States has said that they do not want to mediate the 
discussion--that it has to be resolved between Moscow and 
Tbilisi.
    There are formulas that are being addressed that do involve 
compromise, but I can't say that from what I have heard they 
are particularly promising ones. The discussions, however, 
continue. I don't think either Russia or Georgia or the United 
States is prepared to let this issue derail, a goal that all of 
them in some way share. So, I can't help you.
    Mr. Deutch. Doesn't there have to be some resolution, at 
least as to these borders issues, in advance of WTO accession?
    Mr. Sestanovich. Well, there needs to be a Russian 
withdrawal from Georgian territory. But that is a broader and 
long-term problem. The question is, is there a small fix, a 
small step forward that will make WTO accession easier? And I 
don't know the answer to that.
    Mr. Deutch. Dr. Cohen, in the meetings there were some 
statements made alluding to the long-term--having to wait to 
see the long-term economic viability of Abkhazia and South 
Ossetia. It wasn't clear whether that suggestion meant that 
ultimately if they weren't economically viable the Russians 
might ultimately withdraw, or if they weren't economically 
viable that the Russians might ultimately try to incorporate 
them into Russia. Do you have thoughts on that?
    Mr. Cohen. An excellent nuanced question, sir. I would say 
that Russia definitely recognizes that South Ossetia is not 
economically viable, is depopulated, it is heavily subsidized, 
it is run by former KGB and Communist Party ethnic Russians. As 
far as Abkhazia, it may or may not be economically viable. The 
coastline is so gorgeous, the Russians will never give it up as 
long as they can. And I think you are putting your finger on 
something absolutely vital. And that is that both the United 
States and our European allies should be doing more to support 
territorial integrity of Georgia; and also our Government that, 
as a part of the reset, is not providing sales of defensive 
arms to Georgia. Maybe as a part of a reset rethink that I am 
advocating, we should look at that again, because why is it 
that we are denying Georgia defensive arms?
    The Secretary of State while visiting there says, it is 
democracy that will make you safe. Senior State Department 
officials say, <greek-l>quote,  deg.``Georgia is 
oversecuritizing''<greek-l>, unquote, deg. the South Caucasus 
issues. And in the meantime, we have four military bases of 
Russia in Abkhazia, in South Ossetia. We have the extension of 
a huge base in Armenia called Gyumri until 2044. The one who is 
securitizing South Caucasus is Russia.
    Mr. Deutch. Thank you. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Deutch. And 
Mr. Marino is recognized from Pennsylvania.
    Mr. Marino. I thank the chairwoman. Good morning. So far it 
is good morning.
    I don't know if my colleague and friend, Mr. Deutch, 
prefaced his statements and questions, but we both just got 
back from Russia. And four points that I would like to bring 
out--and I would like each of you to respond, knowing that we 
only have 5 minutes.
    First of all, it was very clear when we visited Moscow and 
sat down with Duma members, simply saying that--and the one 
individual, I think he was a part of the Socialist Party that 
formed a larger majority, simply stated that as long as the 
existing President of Georgia is not only in that position, but 
has any influence, Russia does not want to have any 
communications whatsoever and there are no deals on the table. 
So it is a personal issue that it appeared to me, or at least I 
inferred from the comments.
    The second issue, the same member of the Duma stated that--
well, tried to chastise us a little bit, that why are we 
picking on Iran, because we thought Iran was a very friendly 
country. What are we doing in Afghanistan, et cetera. I 
politely said to him, I will take you to task on that when we 
have the time. They chose to have no response, but then turned 
around to say that not only the world but Russia is looking at 
the United States to get its economic affairs in order because 
we have an impact on the international economy, and we still 
should be able to help Russia. Now, criticizing us and then 
turn around and say, we need your money.
    The next issue is that the Russians have an ability to 
politely--politely agree with an issue that we raised, and then 
history has proven over the years that they do nothing about 
it. In fact, they almost ignore it.
    And the last issue is the corruption taking place in 
Russia, and the emphasis was put on the wealth that Putin has 
accumulated so rapidly, the wealth to the extent--from several 
individuals saying he is probably one, if not the richest man 
in the world.
    Would you care to address those issues and comment on 
those, please, Doctor?
    Ms. Swett. Well, on the question of it being personal vis-
a-vis the President of Georgia, I think that there are a lot of 
decisions in Russia that are based on personal animus and 
animosity. And certainly the case of Mikhail Khodorkovsky is a 
classic example of that, where Putin has viewed Mikhail 
Khodorkovsky, now Russia's most prominent political prisoner, 
as a direct threat to his power. So they have thrown aside all 
semblance of rule of law in the continued and excessive pursuit 
of this individual. So I think that that kind of personal 
politics is very prevalent there.
    On the issue of corruption, it is rampant. It is sometimes 
called vertical corruption. It is taking place at every level. 
And it represents a kind of plundering of the Russian people by 
the Russian bureaucracy. And it is one of I think the most 
severe issues holding back any sort of hopeful future for the 
Russian people until this rampant inbred corruption by the 
governmental bureaucracy is brought under control.
    And maybe I will leave some of the other issues to my 
colleagues because I know time is short.
    Mr. Marino. Dr. Cohen.
    Mr. Cohen. I couldn't agree more on Saakashvili, but also 
countries have interest. And I would submit to you that it is 
not in the Russian interest to have this chronic long-term 
irritant, which is occupation of Georgia. They need to think 
how to resolve it, Saakashvili or no Saakashvili. A lot of 
people don't like each other and don't get along.
    Ahmadinejad, the President of Iran, is a revolting 
individual and nevertheless the Obama administration reached 
out to him. Well, it didn't work. But what I am saying is, you 
have to get over it and deal with the issues. On Iran, I think 
many Russians don't recognize that Iran having the medium-range 
ballistic missiles, especially if they are tipped with nuclear 
weapons, not just with technology from Russia--North Korea, 
China, Pakistan, all play a role in building the Iranian 
nuclear power--this is going to be a threat to Russia. It will 
take 5 minutes for such a missile to reach Moscow or any other 
Russian city.
    And finally on corruption, yes, it is systemic. Yes, it is 
getting worse. Yes, President Medvedev spent a tremendous 
amount of time talking about it, with no visible results for 
now. And as Dr. Swett mentioned, Khodorkovsky and his company 
Yukos, Yukos was expropriated by the state. Its assets were put 
in the possession of a state-owned oil company called Rosneft, 
and it was done in a corrupt way, in a corrupt fashion, and 
people benefited from that.
    Chairman Ros-Lehtinen. Thank you so much. And thank you, 
Mr. Marino. I would like to recognize Mr. Connolly before I 
recognize Mr. Engel. Mr. Connolly had asked a question of the 
panelists and we wanted to get Dr. Swett's answer to it. Do you 
remember or you could reframe it?
    Mr. Connolly. Thank you, Madam Chairman. My question was 
sort of twofold. One was, what is your take on the ostensible 
differences between Medvedev and Putin; and then, secondly, 
even aside from that, are we seeing a healthy evolution, 
however slow, in democratic institution building and democratic 
aspirations? Because it would seem that over the last decade or 
so, we have actually seen retrogression.
    Ms. Swett. Well, I would agree with your last point. I 
don't think we are seeing healthy development. It is going in 
the opposite direction. But as it relates to the issue of the 
interrelationship between Putin and Medvedev, President 
Medvedev has spoken clearly. In fact, one of the first things 
he said upon assuming the Presidency was that he wanted to 
combat the legalism nihilism--and those are his words--that 
characterized Russia. And many people are watching this second 
trial of Khodorkovsky and Lebedev because it is the ultimate 
example of legal nihilism.
    As Dr. Cohen said, legal experts across the spectrum and 
across the globe acknowledge that it is an absurd Kafkaesque 
trial in every sense where they are now being sort of convicted 
for charges that are absolutely inconsistent with the facts on 
which they were initially convicted 8 years earlier. And I 
think the outcome of that case, the fact that basically it was 
an example of telephone justice, that from Mr. Putin came the 
telephone call to the judge ordering the outcome that he 
desired. I don't think there is any doubt about that. The judge 
expelled reporters from the courtroom when he read the verdict, 
because I think his own shame and sense of guilt at being a 
party to this was so great that he didn't want all those 
witnesses there as he read the verdict.
    So certainly the outcome of the Khodorkovsky case is 
emblematic of the fact that in this conflict between Medvedev--
more of a reformer, somebody who has a law background himself--
and Putin, Putin clearly was triumphant.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Connolly. Madam Chairman, I want to thank you.
    Chairman Ros-Lehtinen. Thank you, Mr. Connolly. Thank you, 
Dr. Swett.
    Mr. Engel, the ranking member on the Subcommittee on the 
Western Hemisphere, is now recognized.
    Mr. Engel. Thank you, Madam Chair. I wanted to ask any of 
the panelists if they care to comment--since I chaired the 
Western Hemisphere Subcommittee for a number of years and am 
now the ranking member--of Russia's intent in Latin America. 
That is something that is sort of under the radar screen. We 
know, for instance, that Iran, sitting down with Hugo Chavez, 
has tried to infiltrate a number of places in Latin America.
    I am wondering if any of you would care to comment on what 
you see as Russia trying to do, because I am a believer that if 
the United States doesn't engage the way we should, then we 
have Russia and China and certainly the likes of Chavez and his 
people moving into the void.
    So, Dr. Cohen.
    Mr. Cohen. Mr. Engel, first let me thank you for everything 
you are doing on foreign policy. I am a great admirer.
    Mr. Engel. Thank you.
    Mr. Cohen. Russia has a special relationship with Hugo 
Chavez. Mr. Sechin, a Putin confidante, a Spanish speaker and 
Portuguese speaker and deputy prime minister in charge of, 
among other things, oil and gas, is in charge of the Venezuela 
dossier. Russia promised, in a very dangerous way, I think, to 
build a nuclear reactor in Venezuela. If they do that--this is 
the trajectory that started with Iran, with Bushehr--and under 
the guise of building a civilian nuclear reactor--you can train 
nuclear engineers, you can train physicists, and you can 
launch, God forbid, a Venezuelan Chavista nuclear weapons 
program. And of course this is not something you would like to 
have.
    Moreover, Russia is selling sophisticated weapons, but also 
less sophisticated weapons that should be a cause for concern 
of this administration. And maybe I missed something, but I 
haven't heard that concern really expressed by this 
administration. I am specifically talking about the Kalashnikov 
assault rifle factory in Venezuela. Now, Venezuela can arm 
500,000 people with Kalashnikov, and people in this town pooh-
poohed it. But there is nothing to pooh-pooh if it comes to 
support of FARC and the threat to Colombia.
    Finally, let's note the Russian efforts at soft power. 
Russia Today is an anti-American television channel. It has not 
only a massive presence in Washington, DC, it has American 
broadcasting, Arabic broadcasting and, importantly, Spanish 
broadcasting. Russia Today is broadcasting in this country in 
Spanish and is broadcasting in Latin America. So it is the 
combination of hard power and energy. The Russians managed to 
push out Western oil companies from Venezuela and get, in their 
stead, to develop very lucrative Venezuelan oil resources, and 
soft power, such as Russia Today, in combination, should be 
taken seriously. Thank you.
    Mr. Engel. Thank you, Dr. Cohen. I appreciate your 
testimony. Thank you for your comment.
    I don't know if Israel had been discussed before I came, 
but I wanted to mention that. What kind of a role, if any, 
destructive role or positive role, is Russia playing in the 
Middle East today, particularly with the ongoing conflict 
between Israel and the Palestinians?
    Mr. Sestanovich. Russia, as you know, is a member of the 
quartet. They tend to be one of the less active members of the 
quartet and to shape their agenda in relation to the others--
the lead taken by others. There have been some exceptions to 
that. Periodically, Russia tries to make itself a mediator 
between Hamas and other governments, but not a great deal has 
come of those efforts.
    Mr. Engel. How about Russian attempts to, what I think, is 
to trivialize the fact that under the quartet, the Palestinians 
are supposed to renounce terror and, of course, Hamas has done 
anything but?
    Mr. Sestanovich. Yes. The encouragement of Hamas and the 
opening of the channel to Hamas has definitely carried that 
implication. What the exact communications with Hamas have 
been, I don't know.
    Mr. Engel. Yes, Dr. Cohen.
    Mr. Cohen. Real brief. Despite the fact that Hamas is 
recognized as a terrorist organization by both the United 
States and the European Union, the Russians are treating them 
as a legitimate organization. And this is despite the fact that 
Hamas' charter states that its goal is not just to destroy the 
State of Israel, but to engage in violent acts against Jews 
anywhere they can be found.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Engel. Can I just ask one quick thing? I know it is 
near and dear to your heart, Madam Chair. I don't know if there 
was discussion about the Russian connection to the Castro 
regime in Cuba.
    Chairman Ros-Lehtinen. For that, I may give you additional 
time. But let's go to Ms. Schmidt, in order to be fair. Thank 
you, Mr. Engel. Mrs. Schmidt of Ohio is recognized.
    Mrs. Schmidt. Thank you. First off, I am delighted to see 
the family of a very good colleague of mine in the audience 
today. Mrs. Lantos, it is so nice to see you. And Dr. Swett, 
you look just like your father. I don't think there is any DNA 
test needed for you.
    I am going to continue with Congressman Engel's question on 
the relationship between Castro and Putin. And I will let all 
of you answer that.
    Mr. Cohen. There is a residual relationship that comes from 
the Soviet era. My understanding is that there is direction, or 
directive from above, to improve, encourage, and intensify the 
relationship between Russia and Cuba, but nothing on the level 
of the old Soviet support and subsidy, the multibillion-dollar 
subsidy, and the spying facility. Although I heard--I didn't 
look into that that much--a spying facility was transferred 
from the Russian tutelage to the Chinese tutelage. But I would 
need to look more into that.
    Mr. Sestanovich. If you can't pay for weapons or nuclear 
power plants or other Russian exports, you are not really 
interesting to the Russians. There is a tiny bit of residual 
tail-pulling value for Cuba in Russian policy, but it is pretty 
minor. The Russians are more interested in Brazil as a member 
of the BRICs, or of Venezuela because it is an energy exporter 
and generally irresponsible player in the hemisphere. Those 
countries offer more fun and profit for Russia. Castro seems 
very much yesterday's man by comparison.
    Ms. Swett. I would agree with that. But I think it is 
nonetheless instructive and illuminating that the Castro regime 
remains an oppressive, autocratic, antidemocratic regime and 
Russia supports them. I think that is something worth noting.
    Mrs. Schmidt. Thank you. And the Obama administration said 
that the New START agreement with Russia does not undermine 
U.S. missile defense plans. And the Russian Government has 
repeatedly stated that in fact the treaty is predicated in a 
way that--on that very thing, and that it will not honor the 
agreement with the U.S. missile defense plans if the U.S. 
missile defense plans proceed. So who is correct, Obama or 
Putin?
    Mr. Sestanovich. The Russians have backed themselves into a 
corner here. I predict they will be able to get out of it. But 
they have taken a rather absolutist position that the 
administration--that no U.S. administration is going to 
support. It is an absolute red line in American policy that you 
are not going to yield on missile defense just to please the 
Russians. The Russians, I believe, are getting that message. 
They have got it loud and clear from NATO this week.
    Mr. Cohen. I think that the concessions were made, and we 
recognize the nexus between defensive and offensive weapons. 
That was opening the gate for the Russian claims. We in this 
way facilitate the Russian claims. We are engaging in 
negotiations on missile defense. And unlike what Congressman 
Rohrabacher said before--unfortunately, he is not here--that 
this missile defense in some way is threatening the massive 
Russian strategic ballistic missile arsenal, that is just not 
the case. These missiles in Europe are aimed at the Iranian 
threat. It is a very small deployment. They can intercept a 
small number of warheads. Russians have thousands of warheads.
    So what they are doing is posturing in an attempt to gain a 
say in an area that we thought that they are out of, which is 
Central Europe. What the Poles do, what the Czechs do, as 
members of NATO, is no Russian business, especially when this 
deployment does not threaten Russia.
    Mr. Sestanovich. My question on this is always, how is it 
working out? No one agrees with the Russian position.
    Mrs. Schmidt. Thank you very much. I yield back my time.
    Chairman Ros-Lehtinen. Thank you. Mr. Sherman, the ranking 
member on the Subcommittee on Terrorism, Nonproliferation, and 
Trade.
    Mr. Sherman. It is great to have you here. We all admired 
your father and many of us look forward to the day when you are 
on this side of the room.
    Ms. Swett. Thank you so much.
    Mr. Sherman. The easiest thing for us to do in this room is 
to say that all of the tension between the United States and 
Russia is Russia's fault, that we are blameless, that our 
policies are logical.
    I think there is enough blame to go around; that we can 
give Russia its fair share and still assume a little bit for 
ourselves. Now, one of the great philosophical debates in 
foreign policy is territorial integrity versus self-
determination, the two great wars of America's history, our 
Revolutionary War for our self-determination and the Civil War 
to retain our territorial integrity and prevent the so-called 
self-determination of the southern States.
    We see this tension in areas much closer to Russia. We 
supported the independence of Georgia, Moldova, and all the 
Soviet Socialist republics. We supported the independence of 
Bosnia and Croatia, and even of the Kosovo province of the 
Republic of Serbia. We opposed the independence of the northern 
part of Kosovo that wanted to break away and rejoin Serbia. We 
opposed the independence of Trans-Dniester, Moldova. We opposed 
the independence of South Ossetia and Abkhazia.
    Now we seem to be on both sides of this issue. It seems 
like there is no logic in this issue. It seems like there is no 
logic in our position. There is logic. There is consistency. We 
are absolutely, insistently, anti-Russian on a host of issues 
very important to them and seemingly philosophically schizoid 
for us.
    My first question, Ambassador, is, other than things that 
are in the economic interest of Russia and/or feathering the 
economic interests of particular elements of the leadership 
team, what does Russia want from the United States?
    Mr. Sestanovich. Congressman, I have to comment on your 
point about consistent anti-Russian policy on the issue of 
territorial integrity. The issue of territorial integrity that 
has mattered most to Russia in the past 20 years has been 
Chechnya. And the United States has never in any way questioned 
that territorial integrity. We have objected to the way in 
which Russia repressed the Chechen people and brutally----
    Mr. Sherman. I will ask you to respond back.
    Mr. Sestanovich. But on that issue there has been----
    Mr. Sherman. Yes. We haven't totally called for the 
dismemberment of the Russian Federation. Aside from that--well, 
you can answer my question.
    Mr. Sestanovich. Yes. I think that Russia has a desire to 
have its great power status respected, its status as a nuclear 
superpower respected, its growing position as an energy power 
advanced through cooperation, and sometimes not cooperation, 
with other consuming countries.
    Mr. Sherman. If I can, the Russians have made the most 
difficult national psychological change ever from superpower to 
nonsuperpower. The Germans tried to make that change, having 
lost World War I, just as Russia lost the Cold War. They were 
unsuccessful in making that psychological adjustment until the 
Second World War.
    Have we done everything possible to assuage Russia to make 
sure that it is being treated with proper respect, or has the 
Cold War mentality in the United States led to gratuitous acts 
of humiliation?
    Mr. Sestanovich. I think that every administration since 
the end of the Cold War has tried to find a way of according 
Russia respect without giving Russia veto over issues where we 
want to pursue our interests. And as with territorial integrity 
and self-determination, that is sometimes a hard balance to 
strike. I would say most of the administrations have gotten it 
pretty much right. But on the receiving end for the Russians, 
the feeling is always we don't get enough deference.
    Mr. Sherman. I hope we do a second round so I have a chance 
to get the opinions of the other two witnesses, and I regret 
that I only had 5 minutes. I yield back.
    Chairman Ros-Lehtinen. Thank you very much. Unfortunately, 
we will not have a second round. We will be voting pretty soon. 
But I want to thank the wonderful panelists. And thank you to 
all the members for terrific questions. And thank you to the 
visitors who joined us. And the committee is now adjourned.
    [Whereupon, at 12 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              <F-dash>\<Hoarfrost><acctof><careof>t<star> 
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
